HHS/OIG, Audit -"Review of Nursing Facility Staffing Requirements at Willow Ridge Center,"(A-03-05-00204)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nursing Facility Staffing Requirements at Willow Ridge Center," (A-03-05-00204)
October 26, 2005
Complete Text of Report is available in PDF format (402 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether Willow Ridge Center was in compliance with Federal and State staffing laws and regulations for nursing homes.  Based on our review of 87 direct care employees, Willow Ridge Center complied with Federal staffing laws and regulations that we reviewed, but did not comply with State background check requirements.  A review of the direct care employees disclosed that Willow Ridge Center did not obtain a current State background check for 1 direct care employee and did not obtain the background checks for 8 direct care employees within the required timeframes.  We recommended that Willow Ridge Center review and strengthen its internal controls to assure that it obtains valid background checks that are less than one year old for all new direct care employees, obtains valid background checks on all new direct care employees within the required timeframes, and prohibits new employees from working directly with the residents if the required background checks are not received within the required timeframes.  In response to our report, Willow Ridge has revised its procedures.